a*s

No.

IN THE
SUPREME COURT OF THE UNITED STATES

“In re PERCYALLEN STUCKS” - PRO SE PETITIONER
Vs.
JENNIFER J. MOORE - RESPONDENT®?
ON PETITIONER FOR WRIT OF CERTIORARI TO

FILED
OCT 0 8 2020
SUPREME COURT OF FLORIDA

griplRFMFFCOURTLURSK

NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE

PETITION FOR WRIT OF CERTIORARI

PERCYALLEN STUCKS

500 East Adams Street

Jacksonville, Florida, 32202

QUESTION(S) PRESENTED
1.

Does a resident have the right to stand their ground in their

residential property in Florida?
2.

Is a resident required to leave their residential property if harm of

imminent danger is getting used on them according to Florida Law?
3. Does a victim of prior domestic violence; have the right to defend
themselves?

i

LIST OF PARTIES

1. Jennifer J. Moore
Assistant Attorney General
PL-01, The Capitol
Tallahassee, Florida 32399- 1050

ii

TABLE OF CONTENTS

PAGE

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED....... 3-6
STATEMENT OF THE CASE

7-20

REASONS FOR GRANTING THE WRIT

20-22

CONCLUSION

22-25

INDEX TO APPENDICES
APPENDIX A
TABLE OF CONTENTS

A-i

Supreme Court of Florida
Acknowledgement of New
Case

A-ii

Supreme Court of Florida
Order transferring case to
the 1st DCA

A-iii

/
,/

1st District Court of
Appeal New Case
Acknowledgement

A-iv

Supreme Court of Florida
Order with instructions

iii

/

for reinstatement
A-v

1st District Court of
Appeal Show Cause
Order

A- vi

1st District Court of
Appeal Order denying as
moot

A-vii

1st District of Court of
Appeal Order Dismissing
Writ of Prohibition

A-l

Supreme Court of Florida
Order denying rehearing

A-2

ORDER DENYING
DEFENDANT’S
MOTION TO DISMISS
PURSUANT TO
FLORIDA STATUES
776.032 JUSTIFIIABLE
USE OF FORCE “
STAND YOUR
GROUND”

A-3

A PRACTICAL GUIDE

iv

TO BRADY MOTIONS
A-4

Mattress from crime
scene report Detective
Edwards interview with
State Witness John
O’neal

A-5

T-Mobile cell sites used
by (904) 680-8631
7/11/2016- 7/12/2016Duval

A-6

The Medical Examiner
Autopsy Report

A-7

Type of Incident Report

A-8

Interior front Driver side
door report

A-9

VA Disability rating

A-9A

US ARMY ACTIVE
MEDICAL RECORDS

A-10

Mattress from crime
scene report

A-ll

Property Storage card
Report

A-12

JSO ET S. Wells Georgia
Hotel Crime Scene Report

A-13

Rear of incident Vehicle
Report

A-14

Landlord Alphonso
Walker statement in JSO
Report dated on 08/23/16

A-15

Landlord Alphonso
Walker statement in JSO
Report dated in JSO
dated on 10/17/16

A-16

JSO Detective Chizik
Georgia Hotel Report

A-17

Photos of Mr. Stucks 8
days after incident

A-18

Mr. Stucks’ JSO Police
Brutality lawsuit Report

A-19

National Rifle Association
of America Certificate

A-20

Mr. Stucks’ VA Medical

Report
A-21

UF Shands Report from

vi

JSO Police Brutality of
Mr. Stucks
A-22

Appellant’s emails with
VA Counselor/ Mental
Health Specialist

A-23

Appellant’s emails with
VA Counselor/ Mental
Health Specialist

A-24

Appellant’s emails with
VA Counselor/ Mental
Health Specialist

A-25

Appellant’s emails with
VA Counselor/ Mental
Health Specialist

A-26

Appellant’s emails with
VA Counselor/ Mental
Health Specialist

A-27

Previous JSO Report of
Defendant being victim of
Domestic Violence

A-28

Alleged victim Ms. Davis
Autopsy Report

vii

A-29

JSO’s Internal Affairs
refusing Public Records
request

A-30

Alleged victim Ms. Davis
last arrest

A-31

Motion To Incur cost for
transcripts from March
05, 2018, “ Stand Your
Ground Hearing” and
March 04, 2020

A-3 2

JAC’s response to motion
to Incur costs for
transcripts

A-33

Concealed weapons or
firearm License W

A-34

Internet guide on PTSD
Victims Acknowledgement

A-35

Technical Certificate as a
“Business Specialist”

A-36

Technical Certificate as a
“ Accounting Technology
Specialist”

viii

A-37

Florida’s Governor’s
response

A-38

Florida’s Governor’s
response

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Brady v. Maryland.
373 U.S. 83 (1963)

4, 19

Bretherick v. State.
170, So. 3d 766 (Fla. 2015)

4,21

Chaffin v. State.
121 So. 3d 608, 612 (Fla. 4th DCA 2012)

4, 21

Dean v. State.
962. So.2d 962 (Fla. 4* DCA 2005)

5, 14, 20

Dennis v. State.
51 So.3d 456, 462 (Fla. 2010)

3 ,5, 10, 21

ix

Kyles v. Whitley.
514 U.S., 419, 442 n. 134, 445-451 (1995)

5, 9

Mobley v. State.
132 So.3d 1160, 1164-65 (Fla.3d DCA 2014)

5,21

Peterson v. State.
983 So.2d 27, 28 (Fla.l* DCA 2008)

21

State v. Vino.
76 So.3d 407, 409 (Fla. 2^ DCA 2011)

21

Strickland v. Washington.
466 U.S. 668, 688, 104 S.Ct. 2052, 80 E.D. 2d 674 (1984)

6

Strickler v. Greene.
527 U.S. 263, 283, 119 S. Ct. 1936,1949, (1999)

6, 8, 19

STATUES AND RULES

•

§ 776.012 Fla. Stat

3, 11

§776.032 Fla. Stat

3,21

§776.032(3) Fla. Stat
§918 (A) (1) Fla. Stat,

OTHER

3,21
4, 8, 14, 16

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.

xi

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals at Appendix

to

The petitioner and is
[ ] reported at

or,

[ ] has been designated for publication but is not yet reported; or,
[ X ] is unpublished.
The opinion of the United States District court of appeals at Appendix
to the petitioner and is
[ ] reported at

; or,

[ ] has been designated for publication but is not yet reported; or,
[ X ] is unpublished
[ ] For cases from state courts
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[

] reported at

[

] has been designated for publication but is not yet reported; or,

or,

[ X ] is unpublished.
The opinion of the
Appears at Appendix
[

] reported at
[

court
to the petition and is
or,

] has been designated for publication but is not yet reported; or,

[ X ] is unpublished

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was N/A.
[

] No petition for hearing was timely filed in my case.

[

] A timely petition for rehearing was thereafter denied on the following date:
., and a copy of the order denying rehearing appears at

Appendix N/A.
[

] An extension of time to file the petition for writ of certiorari was granted to and

including

(date) on

(date) in Application No.

A

The jurisdiction of this Court is invoked under 28 U.S.C § 1254 (1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was April 12,
2019. A copy of that decision appears at Appendix B.
[ ] A timely petitioner for rehearing was thereafter denied on the following
date: April 12, 2019, a copy of the order denying rehearing appears at Appendix B.
[

] An extension of time to file the petition for a writ of certiorari was granted

to and including

(date) on

(date) in Application No.

A
The jurisdiction of this court is invoked under 28 U.S.C. § 1257 (a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
FLORIDA STATUES
1. Section 776.012, Florida Statues, provides in relevant part:
“(2) A person is justified in using or threatening to use deadly force if he or she
reasonably believes that using or threatening to use such force is necessary to
prevent imminent death or great bodily harm to him or herself or another or to
prevent the imminent commission of a forcible felony. A person who uses or
threatens to use deadly force in accordance with this subsection does not have a
duty to retreat and has the right to stand his or her ground if the person using or
threatening to use the deadly force is not engaged in a criminal activity and is in a
place where he or she has a right to be.”
2. §776.032 Fla. Stat. “The Florida Legislature enacted the Stand Your Ground in
2005. Stand Your Ground significantly modified the common law right of selfdefense by abolishing the well-established duty to retreat before using deadly force,
and bestowing immunity from prosecution on a defendant who acts in lawful selfdefense. While Florida law has long recognized that a defendant may argue as an
affirmative defense at trial that his use of force was legally justified, section 776.032
contemplates that a defendant who established entitlement statutory immunity will
not be subjected to trial. Dennis v. State, 51 So. 3d 456,462 (Fla. 2010).”
3. §776.032(4) Fla. Stat. “The effective date of amendment creating subsection
776.032(4) of SYG Law was June 9, 2017 that subsection provides:
“(4) In a criminal prosecution, once a prima facie claim of self-defense
immunity from criminal prosecution has been raised by the defendant at a pretrial

immunity hearing, the burden of proof by clear and convincing evidence is on the
party seeking to overcome the immunity from criminal prosecution provided in
section [ 776 032(1)]”
4. §918 (A) (1) Fla. Stat “Alter, destroy, or conceal investigation evidence.” 7, 12, 22
FEDERAL AND STATES CASES
1. Brady v. Maryland.
373 U.S. 83 (1963)

4, 19

“The Constitution is concerned with only one aspect of discovery- prior to trial, the
prosecution must turn over to the defense all exculpatory evidence in its actual or
constructive possession. Failure to do is a violation of Due Process Clauses of the
Fifth and Fourteenth Amendments. The rule applies regardless of how a state has
chosen to structure its discovery process.”

2. Bretherick v. State.
170, So. 3d 766 (Fla. 2015)

4,21

“Defendant must prove preponderance of the evidence that the shooting he or she
did, so prevent imminent death or great bodily harm was reasonable.”

3. Chaffin v. State.
121 So. 3d 608, 612 (Fla. 4th DCA 2012)

.4,21

“Court must apply an objective standard in determining whether Defendant’s belief
of imminent death or great bodily harm was reasonable.”

4

4. Dean v. State.
962. So.2d 962 (Fla. 4* DCA 2005)

5, 14, 20

“Any evidence that tends to support the defendant’s theory of defense is admissible,
and it is error to exclude it.”

5. Dennis v. State.
51 So.3d 456, 462 (Fla. 2010)

3, 5, 10, 21

“A defendant who establishes entitlement to the statutory immunity will not be
subject to trial.”
6. Kyles v. Whitley.
514 U.S., 419, 442 n. 134, 445-451 (1995)

5,9

“The U.S. Supreme Court took the opportunity to explicitly refute virtually every
excuse prosecutors have traditionally used to avoid turning over Brady material at
trial, and to avoid reversal on appeal and habeas corpus when they are caught in a
Brady Violation.”

7. Mobley v. State.
132 So.3d 1160, 1164-65 (Fla.3d DCA 2014)

.5, 21

“The U.S. Supreme Court took the opportunity to explicitly refute virtually every
excuse prosecutors have traditionally used to avoid turning over Brady material at
trial, and to avoid reversal on appeal and habeas corpus when they are caught in a
Brady Violation.”

5

8. Peterson v. State.
983 So.2d 27, 28 (Fla.l* DCA 2008)

21

“The legislature makes clear that it intended to establish a true immunity and not
merely an affirmative defense.”

9. State v. Vino,
76 So.3d 407, 409 (Fla. 2“<* DCA 2011)

21

“Defendant must prove preponderance of the evidence that the shooting he or she
did, so prevent imminent death or great bodily harm was reasonable.”

10. Strickland v. Washington.
466 U.S. 668, 688, 104 S.Ct. 2052, 80 E.D. 2d 674 (1984)

6

“Fell below an objective standard of reasonableness.”
11. Strickler v. Greene.
527 U.S. 263, 283, 119 S. Ct. 1936, 1949, (1999)

6, 8, 19

“ Explicitly held that a prosecutor’s open file discovery policy in no way substitutes
for diminishes the State’s obligation to turn over all exculpatory evidence to Brady.”

6

STATEMENT OF THE CASE APPENDIX A
The facts necessary to an understanding of the issues presented by this
petition are as follows: The petitioner is appealing an decision from the
Supreme Court of Florida to deny; rehearing on my Stand Your Ground
Hearing from March 05, 2018. See Exhibit 1. The petitoner appealed the ruling
of the Hon. Judge Linda McCallum Denying Motion to Dismiss Pursuant to
Florida Statues 776.032 Justifiable Use of Force,” Stand Your Ground.” See
Exhibit 2. On July 08, 2016, the petitioner came to his home from his job at the
Department of Veterans of Affairs Vocational Rehabilitation and was attacked
by Davis. Davis hit the petitioner in the nose with a college book and he
started bleeding. Then, Davis grabbed a knife and started taking swipes at the
petitioner. The petitioner tried to calm her down, but it did not work. The
petitioner noticed a crack pipe and syringe in the room upon arrival and placed
it in the shoe box that was located on the mattress in the Florida crime room.
Davis had been under the influence of some crack cocaine or other drug. Davis
reasoning was altered by the drugs. The petitioner tried desperately to calm
Davis down, but to no prevail; Davis would not taking swipes at the petitioner
with the knife. The petitioner fired one shot, not two or three and fled the
scene.
Petitioner had a Stand Your Ground Hearing on March 05, 2018 and was
denied immunity from the Hon. Judge Linda F. McCallum on her March 15,

2018 Final Order Denying Defendant’s Motion to Dismiss Pursuant to Florida
Statues 776.032 Justifiable Use of Force “ Stand Your Ground.” Petitioner
appealed to the District Court of Appeal, First District and received an
acknowledgment of a new case on April 09, 2018. Petitioner claims Davis was
under the influence of crack cocaine or some other drug due to the fact of
finding a crack pipe and syringe in his room on same day of the attack. The
crack pipe and syringe were never placed into evidence which is a violation of
Florida Statue 918 (1) (A), Alter, destroy, or conceal investigation evidence.
Also, the syringe and crack pipe not being placed into evidence is a Brady
violation. In fact, the U.S. Supreme Court, in Strickler v. Greene, 527 U.S. 263,
283, 119 S.C.T. 1936, 1949, (1999), explicitly held that a prosecutor’s open file
discovery policy in no way substitutes for diminishes the State’s obligation to
turn over all exculpatory evidence to Brady. See Exhibit 3 . State Witness John
O’Neal stated in his discovery report, “he is addicted to crack cocaine and that
he purchases the drug from a dealer known to him as “Smoke” at the yellow
house next door to 1322 Eaverson Street.” O’Neal stated that “he was inside
the yellow house on 07-11-16, purchasing cocaine, when he heard “Smoke
talking to an unknown male about a female who was threatening to call the
police due to being sold bad drugs.” See Exhibit 4. Petitioner was never at the
alleged yellow house and print of cell phone location from 07-11-2016 and 0712-2016. See Exhibit 5. Petitioner asserts the state made up a story to charge
him with Second Degree Murder. Davis has a history of violence and served 10
years in prison in Pennsylvania for attempted murder. Also, Davis attacked

her landlord Ms. Doyle in 2016 in Jacksonville, FL and was arrested and
charged with disorderly intoxication and Public Disturbance. See Exhibit 30.
The Assistant State Attorney Ms. Erin Perry never provided those violent facts
about Davis in the Discovery which is yet another Brady violation. According
to Kyles v. Whitley, the U.S. Supreme Court explicitly said the individual
prosecutor has an affirmative duty to learn of any favorable evidence known to
the other people and agencies acting witnesses, or bolster the defense case
against prosecutional attacks. See Kyles v. Whitley, 514 U.S. 419, 442 n. 445451 (1995). See Appendix Exhibit 3. The assistant state attorney Ms. Erin
Perry never turned over Davis’ mental health background or substance abuse
record to the discovery. Ms. Perry never mentioned in the discovery that Davis
was admitted to Wikivia Springs Mental Health Resource Center in
Jacksonville; FL. Ms. Perry has yet another Brady violation as a prosecutor.
“The prosecution has an ongoing Constitutional responsibility to turn over all
exculpatory material whenever they find it. See Exhibit 3. In Kyles v. Whitley,
“the U.S. Supreme Court took the opportunity to explicitly refute virtually
every excuse prosecutors have traditionally used to avoid turning over Brady
material at trial, and to avoid reversal on appeal and habeas corpus when they
are caught in a Brady Violation. See Kyles v. Whitley, 514 U.S. 419 (1995). See
Exhibit 3.

In the supplementary report dated from 07-13-16, “the medical

examiner office conducted the victim’s autopsy. The Manner of death was
determined to be a gunshot wound to the head. See Exhibit 6. The alleged
victim did not reside at 1322 Eaverson St in Jacksonville, FL; according to the

autopsy report; the alleged victim resided at 3050 Detroit Cir. St, Jacksonville,
FL 32254. See Exhibit 28. How can the incident take place in two different
places? See Exhibits 13, 14, and 28. Also, according to the autopsy report; the
alleged victim and the defendant reside at 3050 Detroit Cir. St., in
Jacksonville, FL 32254. See Exhibit 28. It seems impossible for the alleged
victim and the defendant to reside at two different locations together. See
Exhibit 13, 14, and 28. In supplementary report no. 2 the type of incident is
Death investigation/ Undetermined. See Exhibit 7. What happened to the
whole story about a homicide? See Exhibit 6. The Detective writing this
supplementary report did not believe the John O’Neal lie. But, it’s proof that
the alleged victim had been purchasing crack cocaine from the yellow house
mentioned by John O’Neal. See Exhibit 4. Petitioner’s truck was never
mentioned in the Stand Your Ground Hearing, because it possessed the
Petitioner’s blood on the driver’s side door panel from the struggle with Davis.
See Exhibit 8. The Petitioner was hit in the nose with one of his college books
than started to bleed. Then, Davis grabbed a knife and started taking swipes
at him. The petitioner was renting a room on Eaverson Street in Jacksonville,
FL in his name. The petitioner tried to reason with Davis after being hit in the
nose, but Davis would not comply. Davis kept taking swipes at the petitioner.
So, the petitioner fired one shot not two or three, but one to stop the threat
from continuing. The petitioner has the right to stand your ground in his
property and should be immune from trial. See Dennis v. State, 51 S0.3d 456,
462 (Fla 2010). The petitioner had been a victim of previous Domestic Violence
10

in the past. See Exhibit 27. Accordingly a person who uses force as permitted
in Florida statue 776.012 is justified in using such force and is immune from
criminal prosecution. See Florida Statue 776.012. The petitioner felt it was
necessary to do so to prevent imminent death or greatly bodily harm to him or
another. See Bretherick v. State, 170 So. 3d 766 (Fla. 2015). The petitioner
served in the US Army from July 01, 2004 to August 29, 2007. The petitioner
deployed to Iraq from 2005 to 2006. The petitioner is 40% service-connected
disabled, 10% for a lower back injury, 10% for a left-elbow injury, and 30% for
Anxiety also known as “PTSD.” See Exhibit 9 and 9A. The training in the US
Army taught the petitioner to assess the threat level and use force necessary to
neutralize the target. In the US Army the petitioner was trained to take out
anyone who pulls a gun, knives, or any weapon on him. Also, Mr. Stucks had
enrolled in a more recent First Steps Pistol Orientation course, to receive
additional training on when to use his firearm. See Exhibit 19. Also the
petitioner have a concealed weapons license to carry; the firearm legally. See
Exhibit 33. The petitioner has bad PTSD from the war in Iraq. See Exhibit 20.
Petitioner slept with a machete underneath his bed for protection. See Exhibit
10. Also, the petitioner kept live 380 rounds in his truck. See Exhibit 8 and 11.
In the hotel room in Georgia, the petitioner had a box of 380 caliber
ammunition on the bed. The box of 380 caliber ammunition contained 21 live
rounds in it. The petitioner also had a gun cleaning kit. See Exhibit 12.The
knife with the alleged victim Davis blood was in the rear of the petitioner’s
truck. See Exhibit 13. The petitioner called the landlord Mr. Alphonso Walker
li

to check on the incident at the Jacksonville, FL room. In landlord Mr.
Alphonso Walker discovery statement from August 2006 it stated, “Mr. Stucks
asked the complaint to come by and unlock the door, but Mr. Stucks was not
present. When the complainant unlocked the door, he observed a female in the
bed.” See Exhibit 14. Notice in the discovery report, he never recognizes Davis
as the petitioner’s girlfriend or staying Davis staying in the room. Mr. Walker
claimed at the Stand Your Ground Hearing the petitioner was jealous or his
girlfriend and over protective. Why Mr. Walker did not say Davis was in the
bed, if he rents the room to the petitioner and Davis? Mr. Walker lied and was
led by the state what to say, he rented the room to the petitioner and Davis to
help the state uphold the second degree murder charge. State witness
Alphonso Walker further lied about the discovery of Davis body in the bed. If
the body was in the bed for a couple days, the bed would have been covered in
blood. In supplementary report dated from 08-23-2016 it stated, “The mattress
was void of any sheets and blankets. There was a shoe box, a pair of shoes, and
white towel on the bed. I examined the items on the bed for blood; however
there did not appear to be blood on these items.” See Exhibit 10. If the body
was in the bed according to the State Witness Alphonso Walker the mattress
would have been covered with blood. See Exhibit 10. Before the incident
between the petitioner and Davis, the petitioner put the crack pipe and syringe
in the shoe box that was on the bed. But, mysteriously those items are not in
the discovery, just like the marijuana and beer in Georgia. See Exhibit 12 and
16. Notice; in the alleged victim’s autopsy report; many different drugs in her
12

system. See Exhibit 28.The State waited 45 months to release the Autopsy
Report to me. See Exhibit 28. In state witness Alphonso Walker discovery
report dated from October 2016 it states, “He advised that he received a voice
message on Saturday (07-09-2016) from Percy Stucks, who is one of his tenants
that rents a room. The message indicated that he (Stucks) lost the key to his
room, and needed him (Mr. Walker) to unlock his room due to him losing key.”
“Mr. Walker advised that he arrived at the house on 07-09-16, at
approximately 1615 hours to unlock Stucks’ room. Mr. Walker stated that he
went inside the house and knocked on Stucks’ bedroom door and opened it. Mr.
Walker said after opening the door, he observed what he describes as Stucks’
girlfriend lying on the floor. He stated that he could only see her legs and feet
due to the bed obstructing his view to the rest of her body.” “Mr. Walker
advised that he did not go inside the bedroom room. He said he called out of
her, but she did not respond, so he shut the bedroom door.” See Exhibit 15. Mr.
Walker story changed completely two months later after the state coached him
on what to say. Mr. Walker never knew the petitioner was dating Davis or that
she visited him frequently. Mr. Walker’s key word from the August 2016
discovery report was “a female” meaning he don’t know her. See Exhibit 14.
According to “A Practical Guide to Brady Motions”, you can impeach a state
witness if, “anything that is inconsistent with the testimony of a State’s
witness.” This might include prior statements of that witness, or any other
information from any other source that is inconsistent with other prior
statements of a State’s witness.” “Anything that is inconsistent with other
13

prior statements of a State’s witness.” “Any statements omitting something the
witness later told the prosecutor, or to.” This covers the very common situation
where a State’s witness at trial “remembers” for the first time that the
defendant confessed to him. “When the witness has such a miraculous
recovered memory, any prior statements the alleged confession became Brady
material, and must be turned over immediately.” See Exhibit 3. Petitioner
claims there was a crack pipe and syringe at the crime scene in Florida.
Detective M. P. Chizik or and Evidence Technician S. Wells removed those
items from the evidence, which violates Florida Statue 918 (1) (A) Alter,
destroy, or conceal investigation evidence. In Dean v. State, it held that, “any
evidence that tends to support the defendant’s theory of defense is admissible,
and it is error to exclude it. See Dean v. State, 962 So. 2d 962 (Fla. 2005). How
can you infer there was a crack pipe and syringe at the crime scene Florida?
State Witness John Oneal admitted to seeing Davis buying crack cocaine from
Smoke and had complained about drugs. See Exhibit 4. Detective M.P. Chizik
and Evidence Technician S. Wells tampered with evidence in Georgia also. See
Exhibit 12 and 16. In supplementary report page 10 of 18 dated from
10/17/2016 it stated, “Detective Chizik was able to speak with Stucks, via
telephone, and Stucks eventually exited room #118 without incident.” “During
a pat down of Stucks, a Hi-Point gun magazine was removed from his right
front pants pocket.” See Exhibit 16. Petitioner was wearing gym shorts with
pockets no pants were worn during pat down. “Stucks further advised
Detective Chizik that he had a gun underneath the mattress in the hotel
14

l

room. » « Detective Chizik looked under Stucks mattress in the hotel room and
recovered a Hi-point 380 Caliber semi-automatic pistol (model # Cf380, serial #
P809109). The handgun was placed into an evidence bag and left inside the
room to be processed by Jacksonville Sheriffs Office Evidence Technician
S.Wells the following day.” “Writer’s note: nothing was processed or removed
from Stucks’ hotel room, as Jacksonville Sheriffs Office Evidence Technician
S.Wells was going to be arriving the following morning to process the hotel
room and Stucks’ vehicle.” “Personnel from the Richmond Hill Police
Department agreed to secure the scene (hotel room and Stucks’ vehicle)
overnight.” See Exhibit 12. In supplementary report page 12 of 18 dated from
10-17-2016 it stated, “ET Wells opened the evidence bag that contained the
handgun found mattress by Detective Chizik the prior evening.” “ET Wells
advised the gun magazine located inside the gun contained six live rounds.”
“She further advised me that she located what appears to be blood on the lower
receiver of the gun.” ET Wells tested the substance and verified that it was, in
fact, blood.” See Exhibit 12. Petitioner had marijuana and beer in the Georgia
hotel room, but it was not put into evidence. According to supplementary
report page 10 Of 18 it stated, “Nothing was processed or removed. See Exhibit
16. Petitioner should have been charged with a possession of marijuana
charge. During the Stand Your Ground hearing on March 05, 2018, Detective
M.P. Chizik admitted to seeing marijuana and Evidence Technician S. Wells
admitted to seeing beer. Why was the marijuana and beer not placed into
evidence? During the Stand Your Ground Hearing on March 05, 2018,
15

Detective M.P. Chizik and Evidence Technician S. Wells admitted there was
no physical evidence linking the petitioner at the crime scene in Jacksonville,
FL. How can the state charge the petitioner with second degree murder with
no physical evidence? The fact that Evidence Technician S.Wells or and
Detective M.P. Chizik removed the syringe and crack pipe to handicap the
defense’s case which is another Brady Violation. “Due process also requires
disclosure of any evidence that provides grounds for the defense to attack the
reliability, thoroughness, and good faith of the police investigation, to impeach
the credibility of the state’s witnesses, or to bolster the defense case against
prosecutional attacks. See Kyles v. Whitley, 514 U.S. 419, 442 n. 134, 445-451
(1995). See Exhibit 3. The beer and marijuana were removed from the evidence
to say, “I was sober during the interrogation in Georgia.” According to Dean v.
State, “any evidence that tends to support the defendant’s theory of defense is
admissible, and it is error to exclude it.” See Dean v. State, 962 So. 2d 962 (Fla.
2005). Evidence Technician S.Wells or and Detective M.P. Chizik tampered
with evidence which violates Florida Statue 918 (1)(A). How could Detective
M.P. Chizik find an empty 380 Hi-Point gun under a mattress a day earlier
with no blood on it and Evidence Technician S. Wells finds a 380 Hi-Point with
6 live rounds in it with blood on it? See Exhibit 12 and 16. Evidence Technician
S. Wells or and Detective M.P. Chizik tampered with evidence which is a
violation of Florida Statue 918 (1) (A) Alter, destroy, or conceal investigation
evidence. Is it safe to say the crack pipe and syringe was removed from the
crime scene Jacksonville, FL? Do Evidence Technician S. Wells and Detective
16

M.P. Chizik have any integrity? I have contacted JSO Internal Affairs and
requested for their records and have denied. See Exhibit 29. JSO Internal
Affairs refuses to release their complaints and other violations. See Exhibit 29.
State Witness James Small was never mentioned once in my discovery. Mr.
Small claims the petitioner told him about the incident. In the Stand Your
Ground Hearing on March 05, 2018, Mr. Small said, “the petitioner was over
protective and jealous.” The petitioner’s hired counsel for the lower tribunal
case Mr. Nah-Deh Simmons asked Mr. Small, “Do you know where Mr. Stucks
works?” Mr. Small replied, “No.” Mr. Simmons asked do you know when Mr.
Stucks goes to work.” Mr. Smalls replied, “No.” Mr. Simmons asked, when did
you come forward to the police one month later after the incident or two
months later or 3 months later? Mr. Small said, “No.” Mr. Simmons asked why
you waited until one year later. Mr. Small could not answer. Mr. Simmons
asked, do you have any warrants? Mr. Smalls said, “Yes.” How could you have
warrants but come to court in civilian clothes not jail clothing Also, if the
petitioner was jealous or over protective; were there any threatening texts or
phone calls to the alleged victim Ms. Davis? If someone is in love or over
protective; wouldn’t the petitioner mention Ms. Davis at work; to coworkers or
have pictures. The petitioner has no photos or pictures of the alleged victim in
his cell phone. The petitioner never once talked about Ms. Davis at work. See
Exhibits 22, 23, 24, 25, and 26. If someone is over protective or in love; they
would at least mention it to their coworkers. The petitioner never mentions the
alleged victim; Ms. Davis at work physically or on emails to his VA Mental
17

Health counselor and Vocational Rehabilitation Counselor Mrs. Amanda
(Belen) Hart. See Exhibit 22, 23, 24, 25, and 26. The State Attorney Erin Perry
offered Mr. Small inducements to testify against the petitioner which is
unethical. The State Attorney Erin Perry offered Mr. Small inducements to
testify against the petitioner which is unethical. The bottom line, how can a
person trust you with something serious but not let you know something
simple? If a man won’t even tell you where they work, why would they tell you
something serious? Assistant State Attorney Erin Perry gave Mr. Smalls
inducements to testify against the petitioner, because her case was weak
depending on State Witness John O’Neal. See Exhibit 4. Where is Assistant
State Attorney Erin Perry integrity? Is it safe to say that Ms. Perry will do
anything to get anything to get a conviction? The petitioner has put in a
motion, for the Transcripts from the “ Stand Your Ground Hearing” from
March 05, 2018. See Exhibit 31. The petitioner put the motion in to prove, the
claims argued and the motion has not been granted. JAC replied to incur cost
for the transcripts from the March 05, 2018 and March 04, 2020 court dates.
See Exhibit 32. Also, during the Stand Your Ground Hearing Ms. Perry
objected numerous times, while asking the petitioner why he did not call the
police. The petitioner tried to tell the state three times on the record that the
petitioner was a victim of JSO Police Brutality in 2014. See Exhibit 18. The
Assistant State Attorney Ms. Perry objected every time the petitioner tried to
clarify. The fact is the petitioner was a victim of JSO Police Brutality in 2014.
See Exhibit 18. The petitioner sued JSO Department with Attorney Ann
18

Finnell and was awarded $5,000.00. See Exhibit 18. The petitioner was beaten
in handcuffs by four JSO Police officers. See Exhibit 18. Mr. Stucks was taken
to Shands Jacksonville Hospital in Jacksonville, FL. See Exhibit 21. Assistant
State Attorney Erin Perry never put in the discovery, that the petitioner was a
prior victim of JSO Police Brutality in 2014. See Exhibit 18. According to “The
Practical Guide to Brady Motions,” “the constitution is concerned with one
aspect of discovery- prior to trial; the prosecution must turn over to the defense
all exculpatory evidence in its actual or constructive possession. Failure to do
so is a violation of Due Process Clauses of the Fifth and Fourteenth
Amendments. This rule applies regardless of how a state has chosen to
structure its discovery process.” See Brady v. Maryland, 373 U.S. 83 (1963).
See Kyles v. Whitley, 514 U.S. 419 (1995). See Strickler v. Greene, 527 U.S.
263 (1999). See Exhibit 3. The petitioner was in fear for his life and contacted
the landlord of the Jacksonville, FL room to investigate the situation. See
Exhibit 14 and 15. Evidence Technician S. Wells took a photo of the petitioner
8 days after the arrest in Georgia in Florida. Evidence Technician S. Wells
should have taken the photos after the claim of self-defense was claimed. Is it
safe to say Evidence Technician wanted the petitioner healed up before taking
any photos? Evidence Technician S.Wells came to Georgia to process the crime
scene, why not come to Bryan County Jail in Georgia and take the photos? See
Exhibit 17. The petitioner meets the criteria for PTSD. See Exhibit 34.
Petitioner went to Iraq from 2005 to 2006, was a victim of a near drowning in
2008, and a victim of Domestic Violence in 2010. See Exhibit 20 and 27. The
19

petitioner was college student; who was in fear. See Exhibit 35 and Exhibit 36.

REASONS FOR GRANTING THE PETITION

The alleged victim has a history of attacking people; under the influence.
See Exhibit 30. During the detention of the alleged victim; Ms. Davis started
kicking JSO Car inside door panel. While Ms. Davis is under the influence; she
is unreasonable and violent. See Exhibit 30. The alleged victim Ms. Davis
attacked landlord Ms. Doyle and was arrested. See Exhibit 30. Yet, Ms. Davis
resides at another address; how can she reside at the Eaverson address. Also,
the autopsy report states; she resides at 3050 E. Detroit Cir, Jacksonville, FL
32254. See Exhibit 28. The Petitioner has the right to stand their ground on
their property. The Petitioner has been a victim of previous Domestic Violence
and acted out of fear. See Exhibit 27. The Petitioner had evidence tampered
with in case by Detective M.P. Chizik or and Evidence Technician S. Wells
tampered with evidence. The petitioner put the motion in for the transcripts
from March 05, 2018 “ Stand Your Ground Hearing” and it has not yet been
granted. See Exhibit 31 and 32. According to Dean v. State, “Any evidence that
tends to support the defendant’s theory of defense is admissible, and it is error
to exclude it.” See Dean v. State, 916 So.2d 962 (Fla DCA 4th). The petitioner
exercised his right to stand his ground in his personal property. In Dennis v.
State, “a defendant who establishes entitlement to the statutory immunity will
not be subjected to trial.” See Dennis v. State, 51 So.3d 456, 462 (Fla. 2010).
20

Florida Statue 776.032 states, “A defendant may argue as an affirmative
defense at trial that his use of force was legally justified. See Florida statue
776.032. Petitioner is entitled to immunity of use of force based off of Florida
Statue 776. 013 (3) “A person who is engaged in an unlawful activity and who
is attacked in any other place where he or she has a right to stand his or her
ground and meet the force with force, including deadly force if he or she
reasonably believes it is necessary to do so to prevent death or great bodily
harm to himself or herself or another or to prevent the commission of a forcible
felony.” See Florida statue 776. 013(3). In State v. Gallo it states, “grants
defendants a substantive right to assert immunity from prosecution and to
avoid being subject to trial.” See State v. Gallo, 76 So. 3d 407, 409 (Fla. 2nd
DCA 2011), See Dennis v. State, 51 So. 3d 456, 462 (Fla. 2010). In Peterson v.
State, the legislature makes clear that it intended to establish a true immunity
and not merely an affirmative defense. See Peterson v. State, 983 SO. 2d 27, 28
(Fla. 1st DCA 2008). Petitioner was trying to prevent imminent death or great
bodily harm. See Bretherick v. State, 170 So. 3d 766 (Fla. 2015), see Vino v.
State, 100 So. 3d 716, 717 (Fla. 3d DCA 2012), see Mobley v. State, 132 So. 3d
1160, 1164-65 (Fla. 3d DCA 2014), and see Chaffin v. State, 121 So. 3d 608,
612 (Fla. 4*h DCA 2013).
The District Court of Appeal, First District and Supreme Court of Florida
refuses to even hear the case. I have provided them with every document they
required and still the state appellate refuses to even to hear the case. I have
exhausted all of my legal remedies at the state appellate courts levels. I
21

contacted the Governor of Florida numerous times; about my situation and he
has been unresponsive. See Exhibit 37 and 38.

CONCLUSION

The petition for writ of certiorari should be granted.

Respectfully Submitted,

Date: September 29, 2020

22

